                              Closeout for M97050016


   A program manager1 notified OIG that he and another program manager2 had
received a n e-mail from a scientist3 notifying them that she was withdrawing as a
collaborator on the subject's4 pending proposal.5 Her e-mail contained statements
that we interpreted as a n allegation that, in his proposal, the subject
misrepresented the current state of knowledge in the field as well a s his
contributions to it.
   We learned the scientist and the subject had worked together and they had
published a paper together. The scientist, who was out of the country for a period of
time near the deadline for submission of the proposal to NSF, apparently had not
received a timely copy of the proposal from the subject before its submission.
Nonetheless, she had agreed to collaborate with the subject on the project described
in his proposal. When she received a copy of the proposal, she felt that some of the
material the subject had incorporated into it originated from a draft manuscript
(that was eventually published6) the subject had obtained from her co-author7 while
she was out of the country. She said the subject did not have permission to use
information in his proposal that was cited to her and her co-author a s "pers. comm."
She believed that the subject was taking credit for her research, and that he
misappropriated her research goals and projects by representing them as his own.
    OIG compared the scientist's published paper with the subject's proposal. There
was some similarity in the text and descriptions of results, and the subject had
attributed the material in his proposal that overlapped to the scientist and her co-
author a s a "pers. comm."
   We asked the subject for his explanation of the similar material in his proposal.
The subject described his research with the scientist and a collaborators and a
resulting joint publication. He said he invited the collaborator and the scientist to
be co-PIS on a future NSF proposal9 and said he kept them informed about the
nature of the proposal and his research intentions. He said the proposal was
declined so he decided to revise and resubmit it. The subject wrote that he sent
copies of his revised proposal (the proposal of concern to the scientist) to the
collaborator and the scientist to examine so they could determine if they wanted to
participate a s co-PIS. The subject said he removed the scientist a s co-PI due to time

   1 (footnote redacted).
   2 (footnote redacted).
   3 (footnote redacted).
   4 (footnote redacted).
   5 (footnote redacted).
   6 (footnote redacted).
   7 (footnote redacted).
   8 (footnote redacted).
   9 (footnote redacted).




                                   Page 1 of 3                                   M97-16
                              Closeout for M97050016



constraints related to her absence from the country. He told her the proposal
probably wouldn't get funded and perhaps she could be a co-PI upon resubmission.
    The subject explained the origin of the questioned material included in his
proposal. He wrote that he was not aware of, nor had he seen, the scientist's
manuscript when the proposal was submitted to NSF. He told us that the
scientist's co-author had given him a copy of a document, and the subject said the
document had been provided without restriction. (The co-author confirmed that he
had given the subject the document without conditions on its use because he
believed they were all collaborators). From his discussion with the co-author, the
subject knew the scientist was involved in the project and therefore decided to
reference them both in his citation, even though he had only spoken to the co-author
and the document did not list any authors. He said other questioned information in
his proposal came from a n e-mail message the scientist had mailed to him of her
own volition, without conditions while they were collaborating.
   We compared the subject's proposal to the document the co-author provided to
him. The subject's proposal contained information originating from the scientist's
and co-author's document and which he cited as "pers. comm." Although the subject
could have cited the document as "unpublished rather than "personal
communication," the subject gave credit to the scientist and her co-author for the
ideas of theirs that he used in his proposal.
   We also examined the subject's most recent proposal (see fn. 5) that is a
resubmission of the proposal in question. In this third proposal, the subject has
removed some of the information that he had-attributed to the scientist. The
information from the document that remains in the proposal is now cited to the
scientist's and co-author's published paper.                                     .
   Regarding the allegation that the subject misappropriated the scientist's
research goals, we note that the subject, scientist, and co-author have all previously
collaborated and jointly published papers on projects closely related to the research
described in the subject's proposal. Indeed, it was likely that the scientist, co-
author, and subject would collaborate on the research described in the subject's
proposal. The subject acknowledged the co-author (who has been practicing in this
area for longer than either the subject or scientist) for the general direction and
goals of the project. It is also very probable that the research goals of these
individuals became aligned during their collaboration. Finally, as noted above, the
subject referenced the scientist and co-author for the information that he obtained
from their document.
   Based on the information we have, this inquiry is closed and no further action
will be taken on this case. However, we informed the subject that his actions of
including information from the scientist's documents, when it was assumed that
they would be working together, and then removing the scientist as a co-PI while



                                   Page 2 of 3
                               Closeout for M97050016



keeping i n his proposal the same level of research t h a t the scientist would have
performed under the collaboration, were less t h a n collegial.

cc: Legal, AIG-Oversight, IG




                                    Page 3 of 3
